In response to the draft report, GPB officials disagreed with the findings on in-
kind contributions and AFR reporting for capital projects. They agreed with the
discrete accounting and Communications Act findings and have implemented
corrective actions to discretely account for CPB grant expenditures and comply
with Communication Act requirements. GPB’s written response to the draft
report is presented in Exhibit L.

This report presents the conclusions of the OIG. The findings and
recommendations contained in this report do not necessarily represent CPB
management’s final position on these matters. CPB management will make a
final management decision on the recommendations in this report in accordance
with CPB’s audit resolution procedures.

In accordance with CPB audit resolution procedures, CPB management is
responsible for determining the corrective actions to be taken. Based on GPB’s
response to the draft report, we consider recommendations 1c, 2, 4a, and 4b
resolved but open pending CPB’s acceptance of GPB’s corrective actions. We
consider recommendations 1a, 1b, and 3 unresolved, pending CPB’s
management decision.


                               BACKGROUND
In 1982 the Georgia state legislature transferred authority for the state public TV
and radio stations to the Georgia Public Telecommunications Commission
(GPTC), the oversight board for GPB. GPB’s public television stations deliver
PBS and locally produced programming to every county in Georgia, and to
significant portions of surrounding states. GPB is the public radio network serving
Georgia with NPR news and information along with a variety of music. GPB also
delivers Georgia’s electronic education services to classrooms using multiple
media educational products and services.

GPB has one television licensee and three radio licensees (WUGA-FM, WJSP-
FM, and WSVH-FM). GPB annually files separate AFRs to CPB for each
licensee. In addition, GPB has 14 other television transmitters/translators and 18
other radio transmitters/translators that are not required to file a separate AFR
with CPB. These are included in the TV AFR and the three radio AFR’s filed
annually with CPB.

As background, CSG award amounts are determined by the NFFS reported by
stations on its AFR. The CSG calculation process starts with separate amounts
appropriated for the television and radio CSG pools adjusted by the base grant,
distance and local service grant amounts. The funds that remain are called the
Incentive Grant Pools, one is for television and the other is for radio. The
Incentive Rate of Return (IRR) is calculated by dividing the Incentive Grant Pools
by the total amount of NFFS claimed by all television and radio stations in the


                                         2
system. The IRR is then multiplied by the station’s reported NFFS to calculate
the incentive award amount of the station’s total CSG. There is a two year lag
between the reported NFFS and CPB’s calculation of the fiscal year’s CSG
award amount. CPB used the NFFS claimed on GPB’s FY 2009 AFR to
determine the amount of its FY 2011 CSG award to GPB.

GPB’s FY 2009 TV CSG was $2,463,391. GPB’s FY 2009 Radio CSG totaled
$546,023 for its three radio licensees. The radio grants included $403,455 in
unrestricted funds and $142,568 in restricted funds. The restricted funds were to
be spent on the production, acquisition, or distribution of national programming.
The FY 2009 CSG funds could be spent over the two year period from October 1,
2008 to September 30, 2010.

CPB’s cash payments to GPB for the FY 2009 TV and Radio CSGs, Distance
Service, Interconnection grants and Digital Service grants are identified in Exhibit
A. GPB’s FY 2009 AFR reported total revenues of $22,844,741 for the television
licensee and $4,273,885 for the three radio licensees (Exhibits B-E). GPB
reported its NFFS for each of the licensees in Exhibits F-I.

GPB’s 2009 AFRs covered the State of Georgia’s FY 2009 financial period from
July 1, 2008 through June 30, 2009. GPTC’s audited financial statements for this
period reported total revenues of $37,546,985 and expenditures of $39,358,669.
These financials includes a general fund, capital projects fund and non-major
governmental fund.


                           RESULTS OF REVIEW
We examined GPB management’s assertions of compliance with CPB’s CSG
agreement terms, Financial Reporting Guidelines, Certification of Eligibility
requirements, Act requirements, and Non-Federal Financial Support (NFFS) for
FY 2009. We also examined GPB’s CSG and DDF revenue and expenses.
Management is responsible for GPB’s compliance with CPB’s requirements. Our
responsibility is to express an opinion on management’s assertions about its
compliance based on our examination.

Our examination was conducted in accordance with the Government Auditing
Standards for Attestation engagements, and accordingly, included examining, on
a test basis, evidence of GPB’s compliance with those requirements and
performing such other procedures as we considered necessary. We believe that
our examination provides a reasonable basis for our opinion.

Our examination disclosed the following issues of noncompliance with CPB’s
CSG grant agreement requirements, NFFS financial reporting requirements,
Certification of Eligibility requirements, and Act requirements.: $




                                         3
   •   In-kind contributions of $833,891 were claimed as NFFS without adequate
       supporting documentation to verify its allowability as public broadcasting
       activities. As a result, CPB overpaid GPB $54,203 on its FY 2011 CSG
       awards to two radio stations. For reporting purposes we have classified
       this amount as funds put to better use.
   •   GPB’s accounting system did not provide discrete accounting of CSG
       grant transactions that linked expenditures to revenues by grant, in
       accordance with CPB grant agreement terms.
   •   AFRs did not accurately report total revenues and expenditures as
       reported in the audited financial statements. GPB excluded the capital
       projects and non-major government fund activities of $10,430,752 from
       the AFR, which excluded reporting CPB digital fund revenues of $800,651
       and related expenses.
   •   GPB was not in full compliance with the statutory provisions of the Act and
       CPB requirements for conducting open meetings of its Board of Directors
       (Board).
   •   GPB was not in compliance with CPB requirements for establishing
       operating procedures explaining how it complied with four requirements of
       the Act for open meetings, financial records, EEO, and donor lists and
       political activities.

In our opinion, except for the noncompliance issues discussed in the preceding
paragraph, GPB has complied with CPB’s Financial Reporting Guidelines,
Certification Requirements for Station Grants Recipients, and CSG General
Provisions & Eligibility Criteria for the 12 month period ending June 30, 2009.


                 FINDINGS AND RECOMMENDATIONS

In-Kind Contributions Claimed as NFFS without Adequate Supporting
Documentation

In-kind contributions of $833,891 were claimed as NFFS on Schedule C, without
adequate supporting documentation to verify its allowability as public
broadcasting activities. As a result CPB overpaid GPB $54,203 in its FY 2011
CSG awards to WUGA-FM and WJSP-FM. For reporting purposes we have
classified the $54,203 as funds put to better use. The unsupported $833,891
represents 21 percent of the total NFFS of $4,037,117 reported on the AFRs for
WJSP-FM and WUGA-FM (Exhibits G & H).

CPB’s Financial Reporting Guidelines for Preparing the Annual Financial Report
(AFR) and Financial Summary Report (FSR), Grantees’ Fiscal Year 2009,
Section 5.6: completing AFR Schedule C, In-Kind Contributions of Services and
Other Assets, states:




                                        4
       Documentation:

       GAAP also requires that documentation of contributed goods and services
       must support the determination of fair value. Sufficient evidence must be
       retained by the grantee and be available for audit purposes. An invoice or
       letter from the donor is an example of such documentation. Donors must
       independently document their contributions as to description, date of
       donation(s), fair value and method of valuation. In addition, all
       documentation must clearly show the donor’s intent to contribute; and
       must be provided by the donor using their official business stationery that
       prominently displays their name, address and other relevant information,
       including the donor’s signature or the signature of an authorized official or
       the donor…. The grantee must retain all documentation and provide it if
       requested by CPB.

       Line Item Instructions

       Line 2 – General Operational Services (eligible as NFFS)

       A grantee may claim as NFFS contributions of materials, supplies, and the
       use of facilities in which the donor retains legal title to the facilities. This
       category includes the use of electrical, telephone and other utilities paid by
       a third party. These contributions must be recognized as revenue and
       expenses in the period received and used.

       Donations of space or land for towers or other facilities must be valued by
       the donor at fair value. This is determined by comparing the quality and
       quantity of the station’s space to comparable space for which the donor
       charges a fee. If the donor does not rent comparable space, an
       independent appraisal must be done by a qualified appraiser…

Based on our review of donor agreements and related donor letters, we could not
verify that the in-kind activities claimed were eligible as NFFS. The information
reported by the donors, as shown on Exhibit J, did not provide sufficient
documentation to determine whether these transactions represented legitimate
public broadcasting in-kind contributions. Additionally, we could not determine if
acceptable methods were used by donors to establish the fair value of these
contributions. Audit follow-up work identified the basis used by the donors to
claim facility charges for the institutions, but not the other charges for salaries,
supplies, maintenance, etc.

Further, we found no evidence that GPB requested additional evidence from the
donors on the methods used to establish the fair value of its in-kind contributions.
If such actions had been performed, GPB could have determined whether the
contributions qualified to be reported as NFFS.




                                          5
CPB’s Financial Reporting Guidelines instruct stations that donor documentation
should provide specific information that would permit stations to evaluate the
donor documentation and determine, based on the facts and circumstances,
whether the contributions meets the requirements established by CPB when
reporting its NFFS. Because GPB did not request additional supporting
documentation, they could not determine if the in-kind contributions claimed as
NFFS were properly valued and were used solely for public broadcasting
purposes, as required by CPB.

We reviewed 100 percent of the in-kind contributions WJSP-FM and WUGA-FM
received from four universities and two colleges. We were provided agreements
with three universities and one college, as well as, letters from the six institutions
specifying the dollar amounts of services contributed and the nature of the
services provided. In-kind services included salaries and fringe benefits,
supplies, facilities, utilities, maintenance, and custodial services.

GPB was unable to locate agreements for two of the universities. Letters from all
the institutions documented the dollar amounts contributed, but did not document
their method of valuation. Our review of the remaining four agreements raised
questions whether all the funds reported as in-kind were eligible as NFFS. To
illustrate, our review of the agreements found:

   •   The undated Cooperative Agreement between GPTC and the Board of
       Regents of the University System of Georgia on behalf of the University of
       Georgia’s Center for Continuing Education described the construction and
       operations of the radio station in Athens, Georgia. The agreement further
       described how the station would be constructed with federal funds from
       the Department of Commerce and the Kellogg Foundation. The
       Department of Commerce awarded GPTC a Public Telecommunication
       Facilities Program grant to construct the station. The use of federal funds
       in constructing the station raises questions whether the in-kind facilities
       charges claimed from WUGA were exclusive of the federal funds
       contributed to pay for the original construction.

   •   The unsigned 2007 Cooperative Agreement between GPTC and Mercer
       University described how Mercer University would provide studio space on
       campus and in conjunction with the Broadcast Journalism Department of
       the University to create learning opportunities for students in broadcast
       journalism. The non-public broadcasting activities related to the
       Journalism Department raised questions whether the in-kind contributions
       for utilities, maintenance, and custodial services provided were solely
       used for public broadcasting purposes.

   •   The Memorandum of Understanding, dated July 19, 2006 between GPB
       and Piedmont College described the operations of the GPB Radio Bureau
       Chief at Piedmont College. The agreement described the position as a


                                          6
       shared employment arrangement and that the primary function of the
       position was to teach students in the area of broadcast communications
       and to create on-air quality content for GPB radio. The non-public
       broadcasting activities related to teaching students raised questions
       whether the in-kind contributions for supplies and facilities were solely
       used for public broadcasting purposes.

   •   The fourth agreement was a partially signed Memorandum of Agreement,
       for the year ending June 30, 2011, between GPTC and The Board of
       Regents of the University System of Georgia. The agreement was to
       provide 1,478 square feet of office space for use by WACG-FM, at
       Augusta State University. The agreement stated “in consideration for
       providing this space, the Tenant agrees to pay the Landlord the sum of
       one dollar ($1.00) per year.” Augusta University claimed in-kind
       contributions for this facility totaling $7,656 during 2009. Based on the
       2011 agreement provided by GPB, they should have evaluated whether
       Augusta State University’s claim for in-kind services in 2009 was
       appropriate.

Further, we found that three of the universities claimed salaries and benefits for
its employees totaling $382,782. CPB’s Financial Reporting Guidelines state that
grantee’s may claim in-kind contributions for general operational services for
materials, supplies, and the use of facilities. The guidelines do not specify that
donors’ salaries and benefits are eligible as NFFS.

As a result, we are questioning the eligibility of all the in-kind contributions
claimed totaling $833,891 for lack of adequate documentation. This over-
reporting of 2009 NFFS resulted in an over-payment of $54,203 in the FY 2011
CSG award to GPB. For reporting purposes, we have classified these payments
as funds put to better use.

   Recommendations

1) We recommend that CPB management require GPB to:

   a) submit a revised FY 2009 AFR eliminating the unallowable in-kind
      contributions claimed as NFFS;
   b) reimburse $54,203 in excess FY 2011 CSG payments made to WUGA
      and WJSP based on the FY 2009 reported NFFS; and
   c) document corrective actions taken and controls instituted to ensure future
      compliance with CPB guidelines for documenting, recording, and reporting
      in-kind contributions.




                                        7
   Management Response

GPB did not concur with this finding and provided the following explanations of
actions taken to more fully document in-kind contributions claimed.

GPB requested that all six colleges and universities re-submit their FY 2009 in-
kind contributions letters with additional supporting documentation. GPB
management officials stated they have long standing relationships with these
colleges and universities and understands the background of information that
supports the in-kind contributions as originally submitted. These officials stated
they are now prepared to more fully document the in-kind contributions to ensure
compliance with the CPB guidelines for claiming in-kind contributions as NFFS.

All colleges and universities have complied with this request and submitted back-
up documentation with their FY 2011 in-kind contribution letters. GPB will
perform a full review to ensure any agreements between GPB and the
universities and colleges are current and clarify the relationship between both
parties as it relates to in-kind contributions.

GPB disagreed with the OIG interpretation of the agreements between GPB and
the universities and colleges. Their specific disagreements are provided in more
detail in their written response to the draft report presented in Exhibit L.

   OIG Review and Comment

Based on GPB’s response, we consider recommendations 1a and 1b
unresolved, pending a CPB management decision. Since the documentation
originally provided to support in-kind contributions did not adequately document
fair value and the methods of valuation, the acceptance of reconstructed in-kind
claims will be made in CPB’s management decision.

Based on GPB’s response, we consider recommendation 1c resolved pending
CPB acceptance of GPB’s planned corrective actions. Specifically, GPB’s
statement that they are now prepared to more fully document in-kind
contributions, as well as, its plans to perform a full review to ensure any
agreements between GPB and the universities or colleges are current and
clarifies the relationship between the parties as it relates to in-kind contributions.
We suggest that current agreements with universities and colleges specifically
address CPB requirements for documenting in-kind contributions, including
training if necessary.




                                           8
Lack of Discrete Accounting

During our audit period, GPB did not separately record the use of CSG funds in
accordance with CPB grant terms.1 While separate general ledger accounts
were maintained for radio and television CSG revenues, separate general ledger
accounts of CPB expenditures were not established. As a result, we could not
independently verify that CPB funds were properly used without the assistance of
GPB officials to identify CPB expenditures. Station officials stated they
understood the need for better accountability, and would modify its accounting
system to separately track CPB revenues and expenditures to provide an
adequate audit trail in the future.

CPB’s General Provisions and Eligibility Criteria for Radio CSGs, Section 10.B.
Record Keeping and Audit Requirements require stations to provide discrete
accounting and proper documentation to support all CSG expenditures. It further
requires that:

    •   CSG funds which cannot be accounted for because of the recipient’s
         failure to comply with this requirement may be subject to repayment;
    •   grant recipients must maintain financial records that facilitate an effective
         audit; and
    •   records must be retained for no less than three years after the end of the
         expenditure period.

Additionally, CPB’s website provides that, “discrete accounting requires a unique
code that identifies CSG revenues and expenses, restricted and unrestricted, so
that both the grantor and the auditor can discretely track those funds within the
accounting system. There is no requirement to segregate CSG funds in separate
bank accounts. Co-mingling funds is allowable as long as the accounting system
can easily identify transactions associated with a major activity (i.e., department,
grant, contract or other project).”

Our review found that CPB revenue accounts were established in the general
ledger. GPB management officials provided us with a worksheet that identified
how CPB restricted funds were spent. However, GPB had not established
corresponding expenditure accounts in its accounting system to record the
specific use of CPB funds for discretionary CSG, Interconnection, or Distance
Service Grant expenditures. To audit CPB expenditures, GPB had to identify
expenditures recorded in an operating fund expenditure account funded from
multiple sources, including CPB. GPB told us that the CPB funds were spent on
PBS and NPR dues. We were presented with PBS and NPR invoices, which
totaled expenditures in excess of the CPB television and radio CSG funding
levels for our audit period.


1
 Similar discrete accounting requirements apply to the CPB Interconnection and Distance
Service Grants awarded to GPB.


                                              9
For this audit, we accepted management’s assertion that these expenses were
paid with CPB funds; however, we could not independently verify that these
expenses were paid from CPB funds. The operating fund expenditure account
commingled expenditures to pay operating expenses, and did not provide an
audit trail to match expenses to revenue sources.

   Recommendation

2) We recommend that CPB require GPB to comply with CPB’s discrete
   accounting requirements and maintain sufficient financial records to facilitate
   an effective audit of CPB revenues and expenditures. Such records should
   discretely account for all CSG income and expenditures against grants
   awarded on a fiscal year basis and include tracking expenditures.

   Management Response

In response to this recommendation GPB officials stated that effective for FY
2011, GPB has created additional separate fund sources for each CPB grant,
regardless of CPB source, to satisfy CPB’s discrete accounting guidelines.

   OIG Review and Comment

Based on GPB’s response, we consider recommendation 2 resolved but open
pending CPB’s acceptance of GPB’s corrective actions. GPB’s response agreed
to follow CPB’s discrete accounting guidelines; however, the response did not
describe the methodology that will be used to ensure discrete accounting of CPB
grant expenditures.


Annual Financial Report Did Not Report Total Revenues and
Expenditures

Our review of GPB’s FY 2009 AFRs found it did not accurately report total
revenues and expenditures reported in the audited financial statements. GPB
excluded all of the capital projects and non-major government fund activities from
the AFR totaling $10,430,752, which was material to the financial statements.
Further, none of GPB’s four AFRs reported CPB digital fund revenues of
$800,651 on Schedule A, Line 2.B of the AFRs.

Section 2 of CPB’s Financial Reporting Guidelines requires all revenue and
support recognized in audited financial statements must be reported on the AFR.
Section 5.8 requires that the AFR, Schedule E, reflect the sum total of all
expenses (operating and non-operating) as reported in the grantee’s audited
financial statements. Further, CPB Financial Reporting Guidelines require DDF
revenues to be reported on its AFRs, Schedule A, Line 2B.



                                        10
GPTC’s financial statement audit for the period ending June 30, 2009 reported
total revenues of $37,546,985 and expenditures of $39,358,669. GPB’s
combined 2009 AFRs reported $27,118,627 in revenues and $29,930,531 in
expenditures. Schedule F of the AFR, which is the reconciliation schedule with
the audited financial statements, only reported revenues of $27,952,517 on Line
1e, with a reconciling amount of $833,890 for in-kind contributions. Schedule F
did not reconcile the material differences in revenues reported on the AFR and
the audited financial statement, because of the exclusion of the Capital Projects
Fund and Non-major Government Fund activities.

Our review of the audited financial statements and discussion with GPB officials
disclosed that the AFRs only reported the activities from GPB’s General Fund
account. The AFRs did not report the activities in the Capital Projects Fund2
totaling $10,428,359 or the Non-Major Government Fund activities of $2,3933. In
not reporting the Capital Projects Fund on the AFR, GPB did not report CPB
digital revenues of $800,651. The $800,651 in revenues recognized in the
Capital Projects Fund, differed from the $1,213,000 in digital funds paid to GPB
during FY 2009, per Exhibit A.

Our discussions with GPB officials further disclosed that GPB has never reported
digital funds received on its AFRs. Although the elimination of the Capital Funds
from the AFR had no impact of GPB’s reported NFFS, a material amount of
GPB’s revenues and expenditures were not reported on the AFR, in accordance
with CPB guidelines.

    Recommendation

3) We recommend that GPB management establish the necessary controls to
   ensure that all revenues and expenditures on the audited financial statements
   are reported to CPB on the AFR, including CPB digital revenues on Schedule
   A, Line 2B.

    Management Response

GBP’s response disagreed with the audit’s interpretation of the total revenues
and expenditures reported on the AFR compared to GPB’s audited financial
statements.

GPB management officials agreed that they did not include any revenue or
expenditure data for the Capital Projects fund in the 2009 AFR. GPB officials

2
  The Capital Projects Fund is used by GPB to account for the financial resources provided for
the digital conversion of the towers and transmitters.
3
  The Non-Major Government Fund is a permanent fund used to account for funds donated to the
Foundation for Public Broadcasting in Georgia, Inc. The permanent fund is divided into two parts:
reserved and unreserved. The reserved portion of the endowment is held in perpetuity.



                                               11
stated that CPB guidelines require that all TV capital contributions restricted for
facilities and equipment and improvements or digital funds provided by CPB will
be excluded from NFFS. GPB officials further state that even if they had
included the revenue it would have been excluded from NFFS resulting in no
change to the NFFS reported to CPB.

GPB’s management officials stated the examination identified that there is a
difference between what is reported in GPB’s financial statement audit in FY
2009 for CPB digital funds and cash received from CPB in the same period.
GPB responded that the FY 2008 financial statement audit performed for GPB
shows $2,468,586 in revenue (i.e. accounts receivable and/or cash) for CPB
digital funds. Where applicable, any difference in FY 2009 revenue was applied
to outstanding receivables from FY 2008.

   OIG Review and Comment

Based on GPB’s response we consider recommendation 3 unresolved, pending
CPB’s management decision. GPB’s response did not address the
recommendation to ensure all revenues and expenditures are reported on the
AFR.


Communication Act Noncompliance

We found that GPB was not in full compliance with the statutory provisions of the
Act or the CPB requirements for conducting open meetings of its Board of
Directors (Board) and establishing operating procedures explaining how it
complied with four requirements of the Act. Our review also found that GPB
complied with the Act’s requirements for making financial records available to the
public, Equal Employment Opportunity (EEO) reporting, and securing donor list
information.

       Quarterly Notification of Open Meetings Policy

Review of available documentation posted on the GPB web-site and interviews of
station employees disclosed that the station conducted open meetings, advised
the public of the planned meetings using its web site and prepared minutes of
these meetings for review by the public; however, GPB did not fully comply with
CPB’s open meeting requirements to provide quarterly on-air announcements on
at least three consecutive days of the station’s open meeting policy and how the
public can obtain information on the dates, times, and location of upcoming board
meetings.

Section 396(k)(4) of the Act (47 U.S.C. §396(k)(4)) prohibits the distribution of
federally appropriated funds to the licensee of a public broadcasting station
unless the governing body of the organization, any committees of such governing


                                         12
body, or any advisory body of any such organization holds open meetings
preceded by reasonable notice to the public.

The minimum compliance requirements for “reasonable notice” to the public as
stated in CPB’s explanation of the Act requires stations to “give reasonable
notice to the public of the fact, time and place of an open meeting at least one
week (7 days) in advance of the scheduled date . . . .” CPB’s explanation of the
Act requires stations to provide three types of notice.

      1. Notice placed in the "Legal Notices" or the radio and
         television schedules section of a local newspaper in general
         circulation in the station's coverage area; or, notice is
         available through a recorded announcement that is accessible
         on the station's phone system; or, notice is available through
         an announcement that is accessible on the station's web
         page.

      2. Notice communicated by letter, e-mail, fax, phone, or in
         person to any individuals who have specifically requested that
         they be notified.

      3. On-air announcements on at least three consecutive days
         once during each calendar quarter that explain the station's
         open meeting policy and provides information about how the
         public can obtain information regarding specific dates, times,
         and locations.

The station’s lack of compliance with the open meeting notice requirements deprived
the public of the required information envisioned by the Act.

      Documenting Procedures for Compliance with Act Requirements

Our review found that GPB was in compliance with Act requirements to make
financial and EEO records available to the public; and maintaining and securing
donor lists. While we found GPB was in compliance with these specific
requirements, GPB officials had not established implementing procedures or
written documentation explaining how it complied with the four requirements of
the Act.

CPB’s Certification Requirements for Station Grant Recipients provide the
following guidance regarding CPB Procedures for Compliance and Certification
on documentation and written procedures requirements for Open Meetings,
Open Financial Records, EEO and Donor List and Political Activities. Each
recipient of a CPB station grant shall develop documentation explaining how the
station complies with these requirements. This documentation should address
the procedures for conducting open meetings and the methods used to give



                                       13
reasonable notice to the public; the types of financial and EEO information to be
made available to the public, including the mechanisms used to give the public
access to this information; and political activity restriction requirements. This
documentation shall be kept by each station at a reasonable location and made
available to CPB, upon request, to determine the fact and extent of compliance
with these requirements.

These procedures should specify how the station actually goes about complying
with each of the four sections of the certification requirements. These
procedures are necessary to provide the public with information they can use to
understand how the station complies with these grant responsibilities.

In response to this finding GPB officials said they were aware of the various
statutory requirements of the Act, but did miss the requirement to prepare
documentation to inform the public what information is available for review and
the methods they should use to obtain this information. GPB officials
acknowledged the need to comply with these requirements and addressed these
issues in its response to the draft report.

   Recommendations

4) We recommend that CPB require GPB management to fully comply with all
   requirements of the Act and provide CPB with documentation of its
   compliance with the following requirements over the next fiscal year.

   a) Make on-air announcements for at least three consecutive days once
      each calendar quarter that explain the station’s open meeting policy and
      provide information on how the public can obtain information regarding
      specific dates, times, and locations of public meetings. Maintain
      documentation of station on-air announcements aired, including the date
      and time of each announcement.

   b) Establish written implementing policies on the station’s practices for all of
      the Act’s requirements, including open meetings, maintaining open
      financial records, reporting EEO information, and maintaining donor lists.

   Management Response

In response to Recommendation 4a GPB has taken actions to make on air
announcements for at least three consecutive days once each calendar quarter
announcing the date, time and place of the meetings, maintain documentation of
these announcements, and provide the date and time of each announcement.

In response to recommendation 4b GPB established written policies that
describes their procedures for compliance the Communication Act requirements
that will be available for public view. A motion will be made at the next GPB



                                        14
Board meeting to update GPB’s policies with this document outlining it’s
response and processes to CPB’s certification requirements.

   OIG Review and Comment

Based on GPB’s response, we consider recommendation 4a and 4b resolved but
open pending CPB’s acceptance of GPB’s corrective actions.




                                       15
                                                                                Exhibit A

    Schedule of CPB Payments to Georgia Public Broadcasting
                       for Digital Distribution Fund Grants,
                Television and Radio Community Service Grants,
               Distance Service Grant and Interconnection Grants
                              (July 1, 2008 - June 30, 2009)

       Station                   Grant                     Payment        Payment Date
     GPB/GPTC      DTV Transition Grant                     $10,000.00        5/21/2009
     GPB/GPTC      TV - CSG Base and Incentive Grant     $1,256,992.00       10/31/2008
                                                         $1,256,990.00         3/9/2009
     GPB/GPTC      TV - Distance Grant                    $220,000.00        10/31/2008
     GPB/GPTC      Radio Equipment Grant4                   $40,000.00         3/9/2009
     GPB/GPTC      Station Transition Grant                  $1,500.00        6/17/2009
     WABW          TV Equipment Grant - DDF 10             $188,100.00        10/1/2008
     WACS          TV Equipment Grant                       $56,000.00         9/5/2008
     WCES          TV Equipment Grant - DDF 10              $63,400.00        10/1/2008
     WGTV          TV Equipment Grant - DDF 10              $31,600.00        10/1/2008
     WGTV          TV Equipment Grant                     $202,300.00         9/12/2008
     WJSP-FM       FY 09 Radio CSG Unrestricted &         $164,460.00        10/31/2008
                   Restricted                             $164,459.00         2/24/2009
     WJSP          TV Equipment Grant                       $92,500.00        9/12/2008
     WSVH-FM       FY 09 Radio CSG Unrestricted &           $46,176.00       10/31/2008
                   Restricted                               $46,176.00        2/24/2009
     WUGA-FM       FY 09 Radio CSG Unrestricted &           $62,377.00       10/31/2008
                   Restricted                               $62,375.00        2/24/2009
     WUGA-FM       Radio Equipment Grant                    $37,500.00         3/9/2009
     WUNV-FM       Radio Equipment Grant                    $37,500.00         3/9/2009
     WVAN          TV Equipment Grant - DDF 10              $29,900.00        10/1/2008
     WWIO-FM       Radio Equipment Grant                    $37,500.00         3/9/2009
     WXGA          TV Equipment Grant - DDF 10              $21,700.00        10/1/2008
     WXVS-FM       Radio Equipment Grant                    $37,500.00         3/9/2009
     WABR-FM       Radio Equipment Grant                    $37,500.00         3/4/2009
     WDCO-FM       Radio Equipment Grant                    $37,500.00        3/16/2009
     WJSP-FM       Radio Equipment Grant                    $37,500.00        3/16/2009
     WJWV-FM       Radio Equipment Grant                    $37,500.00         3/4/2009
     WNGU-FM       Radio Equipment Grant                    $37,500.00         3/4/2009
     WPPR-FM       Radio Equipment Grant                    $37,500.00         3/9/2009
     WSVH-FM       Radio Equipment Grant                    $37,500.00        3/16/2009
     WUWG-FM       Radio Equipment Grant                    $37,500.00         3/9/2009
     WWET-FM       Radio Equipment Grant                    $37,500.00         3/9/2009
                             Total FY 2009 Payments:     $4,505,505.00




4
  The grants labeled as ‘Equipment Grants’ are Digital grants funded by CPB. These payments
total $1,213,000.


                                             16
                                                                                  Exhibit B

                       GPB-TV Annual Financial Report
                                Year Ending June 30, 2009

       Line                            Description                             2009
                Schedule A, Source of Income
                Amounts provided directly by federal government
     1.         agencies                                                       $149,582
     2.A.       CPB - Community Service Grants                                 2,463,391
     2.B.       CPB - Digital Project Grants5                                          0
     2.D.       CPB - TV Interconnection Grants                                   50,591
     2.E.       CPB - All Other Funds                                            241,124
                PBS - all payments except copyright royalties and other
     2.F.       pass-through payments                                             33,062
     2.H.       Public broadcasting stations - all payments                       86,879
     3.         Local boards and departments of education                         90,508
     4.         State boards and departments of education                     14,594,197
     5.         State colleges and universities                                   40,946
     6.         Other state-supported colleges and universities                   14,825
     8.         Foundations and nonprofit associations                           548,360
     9.         Business and industry                                            758,699
     10.        Memberships and subscriptions                                  3,519,468
     15.        Passive income                                                   125,170
                Gains and losses on investments, charitable trusts and
     16.        gift annuities and sale of other assets                        (149,927)
     18.        Capital fund contributions                                       136,653
     20.        Other Direct Revenue                                             141,213
     21.                                                     Total Revenue   $22,844,741
                Adjustments to Revenue
     22.        Federal revenue from Line 1                                    $149,582
     23.        Public broadcasting revenue from Line 2                        2,875,047
     24.        Capital funds exclusion - TV only                                136,653
                Other revenue on Line 21 not meeting the source, form,
     25.        purpose, or recipient criteria to be included as NFFS            500,900
     26.        Other automatic subtractions from total revenue                (149,927)
     27.                     Total Direct Nonfederal Financial Support       $19,332,486
                Schedule E, Expenses
                Program Services
     1.         Programming and production                                    $9,720,716
     2.         Broadcasting and engineering                                   3,827,139
                Support Services
     4.         Management and general                                         5,391,698
     5.         Fundraising and membership development                         3,064,727
     7.         Depreciation and amortization                                    962,186
     8.                                                   Total Expenses     $22,966,466



5
 Grant payment records indicate that GPB-TV received digital funds totaling $384,700 for FY
2009 (GPB-TV - $344,700; GPTC - $40,000). AFR Line 2.B. is understated by that amount. 


                                               17
                                                                                           Exhibit C

                            WJSP Annual Financial Report
                                    Year Ending June 30, 2009

    Line                                  Description                                          2009
           Schedule A, Source of Income:
1.         Amounts provided directly by federal government agencies                                   $0
2.A.       CPB - Community Service Grants (unrestricted portion only)6                           328,919
2.B.       CPB - Digital Project Grants7                                                               0
2.C.       CPB - Restricted portion of Radio Community Service Grants                                  0
2.G.       NPR - all payments except pass-through payments                                        25,123
2.I.       Other PBE funds                                                                         2,025
3.         Local boards and departments of education                                              12,921
4.         State boards and departments of education                                           2,038,021
5.         State colleges and universities                                                        46,077
7.         Private colleges and universities                                                      30,215
8.         Foundations and nonprofit associations                                                102,363
9.         Business and industry                                                                  55,716
10.        Memberships and subscriptions                                                         495,333
15.        Passive Income                                                                         25,342
           Gains and losses on investments, charitable contributions and gift
16.        annuities and sale of other assets                                                    (35,168)
18.        Capital fund contributions                                                              28,735
20.        Other Direct Revenue                                                                     3,042
21.                                                              Total Revenue                $3,158,664
           Adjustments to Revenue:
22.        Federal revenue from Line 1                                                                $0
23.        Public broadcasting revenue from Line 2                                               356,067
           Other revenue on Line 21 not meeting the source, form, purpose, or
25.        recipient criteria to be included as NFFS                                                  535
26.        Other automatic subtractions from total revenue                                       (35,168)
27.                                  Total Direct Nonfederal Financial Support                 2,837,230
           Schedule C, In Kind Contributions of Services and Other Assets:
6.         Total in-kind contributions - services and other assets                               $86,029
           Schedule E, Expenses:
           Program Services
1.         Programming and production                                                         $1,603,688
2.         Broadcasting and engineering                                                        1,015,199
           Support Services
4.         Management and general                                                              2,081,427
5.         Fundraising and membership                                                            812,959
7.         Depreciation and amortization                                                         303,848
8.                                                                Total Expenses              $5,817,121




6
  The unrestricted portion of the CSG grant was overstated by including the restricted portion in AFR line
2.A. The AFR should state $243,038 for unrestricted and $85,881 for restricted.
7
  Grant payment records indicate that WJSP received digital funds totaling $350,800 for FY 2009. AFR Line
2.B. is understated by that amount.


                                                   18
                                                                                     Exhibit D

                         WUGA Annual Financial Report
                                 Year Ending June 30, 2009

       Line                             Description                                2009
                Schedule A, Source of Income:
                Amounts provided directly by federal government
      1.        agencies                                                                  $0
                CPB - Community Service Grants (unrestricted portion
      2.A.      only)8                                                               124,752
      2.B.      CPB - Digital Project Grants9                                              0
                CPB - Restricted portion of Radio Community Service
      2.C.      Grants                                                                    0
      3.        Local boards and departments of education                             6,245
      4.        State boards and departments of education                             6,629
      5.        State colleges and universities                                      21,957
      7.        Private college and universities                                     14,604
      8.        Foundations and nonprofit associations                               48,968
      9.        Business and industry                                                26,712
      10.       Memberships and subscriptions                                       239,411
      20.       Other Direct Revenue                                                  1,470
      21.                                                   Total Revenue          $490,748
                Adjustments to Revenue:
      22.       Federal revenue from Line 1                                              $0
      23.       Public broadcasting revenue from Line 2                             124,752
      27.                     Total Direct Nonfederal Financial Support            $365,996
                Schedule C, In Kind Contributions of Services and
                Other Assets:
      6.        Total in-kind contributions - services and other assets            $747,862
                Schedule E, Expenses
                Program Services
      1.        Programming and production                                          159,234
      8.        Total Expenses                                                     $159,234




8
  The unrestricted portion of the CSG grant was overstated by including the restricted portion in
AFR line 2.A. The AFR should state $92,179 for unrestricted and $32,573 for restricted.
9
  Grant payment records indicate that WUGA received digital funds totaling $487,500 for FY
2009. AFR Line 2.B. is understated by that amount.


                                                19
                                                                                     Exhibit E

                         WSVH Annual Financial Report
                                 Year Ending June 30, 2009

       Line                            Description                                2009
                Schedule A, Source of Income
                Amounts provided directly by federal government
      1.        agencies                                                                  $0
                CPB - Community Service Grants (unrestricted portion
      2.A.      only)10                                                              92,352
      2.B.      CPB - Digital Project Grants                                              0
                CPB - Restricted portion of Radio Community Service
      2.C.      Grants                                                                    0
      3.        Local boards and departments of education                             2,369
      4.        State boards and departments of education                           393,417
      5.        State colleges and universities                                       8,328
      7.        Private colleges and universities                                     5,539
      8.        Foundations and nonprofit associations                               18,574
      9.        Business and industry                                                10,132
      10.       Memberships and subscriptions                                        90,811
      15.       Passive income                                                        2,393
      20.       Other Direct Revenue                                                    558
      21.                                                Total Revenue             $624,473
                Adjustments to Revenue
      22.       Federal revenue from Line 1                                              $0
      23.       Public broadcasting revenue from Line 2                              92,352
      27.                     Total Direct Nonfederal Financial Support            $532,121
                Schedule E, Expenses:
                Program Services
      1.        Programming and production                                         $347,552
      2.        Broadcasting and engineering                                        198,691
                Support Services
      4.        Management and general                                              286,618
      5.        Fundraising and membership development                              154,849
      8.                                                Total Expenses             $987,710




10
  The unrestricted portion of the CSG grant was overstated by including the restricted portion in
AFR line 2.A. The AFR should state $68,238 for unrestricted and $24,114 for restricted.



                                                20
                                                                     Exhibit F

      GPB-TV Summary of Non-Federal Financial Support 2009
       Certification by Head of Grantee and Independent Accountant's Report

Line                            Description                            2009

        Summary of Non-Federal Financial Support:
1.      Direct Revenue (Schedule A)                                  $19,332,486
2.      Indirect Administrative (Schedule B)                                   0
3.      In-Kind Contributions (Schedule C)
3.a       Services and Other Assets (Schedule C)                               0
3.b       Property and Equipment (Schedule D)                                  0
4.      Total Non-Federal Financial Support                          $19,332,486




                                         21
                                                                    Exhibit G

      WJSP Summary of Non-Federal Financial Support 2009
      Certification by Head of Grantee and Independent Accountant's Report

Line                            Description                           2009

        Summary of Non-Federal Financial Support:
1.      Direct Revenue (Schedule A)                                 $2,837,230
2.      Indirect Administrative (Schedule B)                                 0
3.      In-Kind Contributions (Schedule C)
3.a       Services and Other Assets (Schedule C)                        86,029
3.b       Property and Equipment (Schedule D)                                0
4.      Total Non-Federal Financial Support                         $2,923,259




                                        22
                                                                    Exhibit H

      WUGA Summary of Non-Federal Financial Support 2009
      Certification by Head of Grantee and Independent Accountant's Report

Line                            Description                           2009

        Summary of Non-Federal Financial Support:
1.      Direct Revenue (Schedule A)                                  $365,996
2.      Indirect Administrative (Schedule B)                                 0
3.      In-Kind Contributions (Schedule C)                             747,862
3.a       Services and Other Assets (Schedule C)                             0
3.b       Property and Equipment (Schedule D)                                0
4.      Total Non-Federal Financial Support                         $1,113,858




                                        23
                                                                     Exhibit I

      WSVH Summary of Non-Federal Financial Support 2009
      Certification by Head of Grantee and Independent Accountant's Report

Line                            Description                           2009

        Summary of Non-Federal Financial Support:
1.      Direct Revenue (Schedule A)                                  $532,121
2.      Indirect Administrative (Schedule B)                                0
3.      In-Kind Contributions (Schedule C)
3.a       Services and Other Assets (Schedule C)                            0
3.b       Property and Equipment (Schedule D)                               0
4.      Total Non-Federal Financial Support                          $532,121




                                        24
                                                                                          Exhibit J

                      GPB In-Kind Contributions Claimed in FY 2009

        Institution                                Category                                Value      Total

University A               Personal Services: Salaries & Benefits                         $359,173
                           Supplies & Expenses                                            $120,207
                           Facilities/Office and Studio Space (16,616 sq. ft. x
                           $16.15)                                                        $268,481   $747,862

University B               Salaries & Benefits                                             $14,636
                           Supplies & Expenses                                              $1,637
                           Studio Rental & Upkeep (1,478 sq. ft. x $5.18)                   $7,656    $23,929

University C               Personal Services: Salaries & Benefits                           $8,973
                           Supplies & Expenses                                              $4,995
                           Facilities/Office and Studio Space (1,023 sq. ft. x $9.50)       $9,719    $23,687

University D               Utilities                                                        $5,762
                           General Maintenance                                              $2,380
                           Custodial                                                        $9,527    $17,669

College E                  Space Rental/Utilities (1,359 sq. ft. x $12.852)                $17,466    $17,466


College F                  Supplies & Expenses                                                $938
                           Facilities Expense (240 sq. ft. x $9.75)                         $2,340     $3,278


                                                                                  Total              $833,891




                                                    25
                                                                         Exhibit K

                       SCOPE AND METHODOLOGY
We conducted our examination of GPB in accordance with Government Auditing
Standards (GAS) for Attestation engagements to determine whether GPB: a)
claimed Non-Federal Financial Support (NFFS) on its 2009 Annual Financial
Report (AFR) in accordance with Corporation for Public Broadcasting (CPB)
Financial Reporting Guidelines; b) complied with the Certification of Eligibility
requirements and the statutory provisions of the Communications Act of 1934, as
amended (Act); and c) expended CSG, DDF and other grant funds in accordance
with CPB grant requirements.

The scope of our audit included reviews and tests of the information reported by
the station on the 2009 AFR and audited financial statements. We examined
GPB’s compliance with the Act and Certification Requirements for CPB station
grant recipients. We examined expenditures for the Digital Distribution Fund
grants and expenditures of the CPB Community Service, Distance Service, and
Interconnection grants paid from the General Fund.

We conducted a risk assessment using the information presented on GPB’s FY
2009 AFR and audited financial statements. As part of our risk assessment, we
gained an understanding of internal controls established by GPB for preparation
of the AFR, recording revenue, and approving expenditures. We met with GPB’s
independent public accountant (IPA) and reviewed copies of the IPA’s working
papers, including internal control work and supporting schedules used to prepare
the audited financial statements and attestation certification provided to CPB.
Our risk assessment was used to plan our detailed substantive testing.

Specifically, we tested the accuracy of the AFRs by comparing the report to
GPB’s revenues and expenditures reports. We evaluated compliance with CPB’s
Financial Reporting Guidelines, in part, by reviewing GPB’s determination of
revenue when computing its NFFS. We reviewed documentation supporting
revenue reported on the FY 2009 AFR for in-kind contributions and underwriting.
We tested twenty-two underwriting agreements totaling approximately $1.3
million from a universe of $2.85 million. All in-kind contributions totaling
$883,881 were reviewed to determine whether the contributions were supported
and eligible for reporting as NFFS.

Because GPB does not employ discrete accounting for non-Digital grants, we
judgmentally reviewed the largest expense category reported on the AFRs. For
GPB-TV, $9.7 million was reported for Programming and Production. Of this
amount, we tested forty-eight transactions totaling $3.9 million. These costs
were funded by the General Fund which included funds received from multiple
funders and grants. For CPB DDF grants, we selected two large grants and
tested all fifty-four expense transactions for a total of $1.8 million. We also tested
GPB’s compliance with the Digital grants’ matching funds requirement by
reviewing $815,983 in GPB-TV digital costs. We selected nineteen invoices for


                                         26
                                                                           Exhibit K

national programming costs totaling $4.5 million. These source documents were
traced to the general ledger detail and reviewed for conformity with grant
restrictions. Overall, five different tests of expenses were performed. These
tests included the review of 121 transactions, totaling approximately $11 million
of the $29.9 million universe of expenditures (per the AFRs).

We also reviewed documentation of GPB’s compliance with the applicable
provisions of the Public Broadcasting Act. Specifically, we reviewed GPB’s
online public inspection file to verify that it contained all the information required
by the Act.

Our examination was performed in accordance with Government Auditing
Standards, for Attestation engagements. We conducted our audit fieldwork from
December 2010 through May 2011.




                                          27
